Report on Audit of the African Development
Foundation’s Financial Statements for the Fiscal Year
Ended September 30, 2001
Audit Report No. 0-ADF-02-002-F
March 20, 2002




                 Washington, D.C.

This page intentionally left blank.
U.S. Agency for
 International
 Development

Office of Inspector General
Financial Audits Division


MEMORANDUM
FOR:                  Mr. Nathaniel Fields

FROM:                 IG/A/FA, Alvin A. Brown

SUBJECT:              Report on Audit of the African Development Foundation’s Financial
                      Statements for the Fiscal Year Ended September 30, 2001
                      (Report No. 0-ADF-02-002-F)

The enclosed Report on the Audit of the African Development Foundation’s Financial
Statements for the Fiscal Year Ended September 30, 2001, prepared by the firm of Leonard
G. Birnbaum and Company, LLP (LGB), is provided for your information. The auditors
issued an unqualified opinion on the financial statements.

The purpose of the audit was to determine whether ADF’s financial statements present fairly,
all material respects, its net position and results of operations for the fiscal year ended
September 30, 2001. The objectives of the audit were to:

     •	 Determine whether the principal financial statements present fairly, in all material
        respects, in conformity with generally accepted accounting principles, the assets,
        liabilities, net position, net costs, and budgetary resources of ADF.

     •	 Report on ADF’s internal controls related to the financial and to the performance
        measures contained in the Management Discussion and Analysis section.

     •	 Report on ADF’s compliance with laws and regulations that could have a direct and
        material effect on the principal statements, and any other applicable laws and
        regulations.

 The auditors identified two material weaknesses in their report. Significant elements of the
 financial statements including, but not limited to, grant advances, prepayments franchise
 fund, accounts payable, undelivered orders, unexpended appropriations, and expenses;

                                               1
were developed from sources other than the general ledger. Also, the U.S. General
Ledger has not been implemented at the transaction level. We are therefore making the
following recommendations to ADF management:

               Recommendation No. 1: We recommend that the African Development
               Foundation establish and implement the U.S. General Ledger at the
               transaction level.

               Recommendation No. 2: We recommend that the African Development
               Foundation establish and implement policies and procedures to ensure
               that the financial statements are developed from its general ledger.

The auditors also identified three compliance findings in the report. In the first instance
identified, the auditors noted that ADF failed to comply wit h the Budget and Accounting
Procedures Act of 1950 (Sec. 113). This Act requires that Federal agencies maintain an
accounting system that provides full disclosure of the results of financial operations,
adequate financial information needed in the management of operations and the
formulation and execution of the budget, and effective control over income,
expenditures, funds, property, and other assets.

The auditors also noted noncompliance with OMB Circular A-127 (Financial
Management Systems), which requires ADF to establish and maintain an accounting
system that provides for (1) complete disclosure of the financial results of the activities of
the agency, (2) adequate financial information for agency management and for
formulation and execution of the budget, and (3) effective control over revenue,
expenditures, funds, property, and other assets.

In the final instance noted, the auditors identified noncompliance with JFMIP’s Federal
Financial Management System Requirements. These requirements state that the core
financial management systems must support the partnership between program and
financial managers, and assure the integrity of decision- making information including the
ability to collect accurate, timely, complete, reliable, and consistent information. JFMIP
also requires that the core financial system be able to provide financial information to
support internal and external reporting requirements, including as necessary the
requirements for financial statements. OMB guidance states that one indicator of
compliance with this standard is that the ADF’s core financial system, supported by other
systems containing the detailed data summarized in the core financial system, be the
source of information for the preparation of the annual financial statements. However,
the ADF’s core financial system is not the sole source of information used in the
preparation of the annual financial statements.

After reviewing the compliance findings identified in the audit report, we are making the
following additional recommendation to ADF management:



                                          2
                Recommendation No. 3: We recommend that the African Development
                Foundation establish and implement policies and procedures to ensure
                that its accounting system is capable of providing full disclosure of its
                results of financial operations and adequate financial information
                needed in the management of its budget and operations, and of
                providing effective control over its revenues, expenditures, funds,
                property, and other assets in accordance with the Budget and
                Accounting Procedures Act of 1950, OMB Circular A-127, and the Joint
                Financial Management Improvement Program’s Federal Financial
                Management System Requirements.

The report prepared by LGB is included in its entirety, along with the Management
Discussion & Analysis prepared by ADF and the ADF financial statements, in Appendix I.
Your comments from the draft report are included in Appendix II.

Although ADF management did not separately address the material weaknesses or
instances of noncompliance in their response to the audit report, they generally concurred
with the conclusions expressed in the report and are confident that all material weaknesses
identified will be resolved by March 31, 2002. Based on the ADF response, we accept the
comments as management decisions.

We appreciate the cooperation and courtesies that your staff extended to my staff and to
the LGB staff during the audit. If you have questions concerning this report, please
contact Andrew Katsaros at (202) 712-4902.

Enclosure (as stated)




                                          3
                                      Appendix I

                                      Page 1 of 18





AFRICAN DEVELOPMENT FOUNDATION


 INDEPENDENT AUDITOR'S REPORT


    SEPTEMBER 30, 2001 and 2000





   Leonard G. Birnbaum and Company

      Certified Public Accountants

         6285 Franconia Road

      Alexandria, Virginia 22310

             (703) 922-7622





          4

                                                                                                          Appendix I

                                                                                                          Page 2 of 18





                                  INDEPENDENT AUDITOR’S REPORT

To the Board of Directors and the President,
African Development Foundation:

         We have audited the African Development Foundation’s (ADF) Balance Sheet, Statement of Net Cost, Statement
of Changes in Net Position, Statement of Budgetary Resources and Statement of Financing (Principal Financial Statements)
as of and for the year ended September 30, 2001; and the Balance Sheet, Statement of Net Cost and Statement of Changes
in Net Position as of and for the year ended September 30, 2000; and have examined internal control over financial
reporting in place as of September 30, 2001.

          In our opinion, ADF’s Principal Financial Statements referred to in the first paragraph, are presented fairly in all
material respects as of and for the fiscal year ended September 30, 2001. In addition, ADF’s Balance Sheet, Statement of
Net Cost and Statement of Changes in Net Position as of and for the fiscal year ended September 30, 2000, are presented
fairly in all material respects.

         We found:

         •   an instance, as noted below, of material weakness in the internal controls over financial reporting, and

         •   instances, as noted below, of noncompliance with selected provisions of applicable laws and regulations.

Each of these conclusions is discussed in more detailed below. This report also discusses the scope of our work.

                                PRINCIPAL FINANCIAL STATEMENTS

        In our opinion, the accompanying balance sheets of ADF as of September 30, 2001 and 2000, and the related
ADF’s statements of net cost and changes in net position for the fiscal years then ended, and ADF’s statement of budgetary
resources and financing for the fiscal year ended September 30, 2001, present fairly, in all material respects, the

         •   financial position of the ADF as of September 30, 2001 and 2000;

         •   net cost and changes in net position of the ADF for the fiscal year ended September 30, 2001 and 2000, and;

         •   budgetary resources and financing of the ADF for the fiscal year ended September 30,2001;


         in conformity with accounting principles generally accepted in the United Sates of America.





                                                            5
                                                                                                           Appendix I
                                                                                                           Page 3 of 18
                                                INTERNAL CONTROL

         We considered ADF’s internal control in order to determine our auditing procedures for the purpose of expressing
our opinion on the Principal Financial Statements and not to provide assurance on internal control. Consequently, we do
not provide an opinion on internal controls.

        The objectives of internal control are to provide management with reasonable, but not absolute, assurance that the
following objectives are met:

         •	   transactions are properly recorded and accounted for to permit the preparation of reliable financial reports and
              to maintain accountability over assets;

         •	   funds, property, and other assets are safeguarded against loss from unauthorized acquisition, use, or
              disposition; and

         •	   transactions, including those related to obligations and costs, are executed in compliance with laws and
              regulations that could have a direct and material effect on the financial statements and other laws and
              regulations that the Office of Management and Budget (OMB), or ADF management have identified as being
              significant for which compliance can be objectively measured and evaluated.

          Our consideration of internal control would not necessarily disclose all matters of internal control over financial
reporting that might be reportable conditions. Under standards issued by the American Institute of Certified Public
Accountants, reportable conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of internal control that, in our judgment, could adversely affect ADF’s ability to record, process, summarize, and
report financial data consistent with the assertions of management in the financial statements. Material weaknesses are
reportable conditions in which the design or operation of one or more of the internal control components does not reduce to
a relatively low level the risk that errors or irregularities in amounts, which would be material in relation to the financial
statements being audited may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions.

        We noted the following matter that we considered to be a material weakness as defined above. ADF’s financial
and accounting system, as of September 30, 2001, was inadequate. The principal areas of inadequacy were:

         •	   Significant elements of the financial statements including, but not limited to, grant advances, prepayments
              franchise fund, accounts payable, undelivered orders, unexpended appropriations, and expenses; were
              developed from sources other than the general ledger.

         •	   United States General Ledger has not been implemented at the transaction level.

       We noticed certain other matters involving the internal control structure and its operation that we have reported to
the ADF’s management in a separate letter dated December 14, 2001.


                         COMPLIANCE WITH LAWS AND REGULATIONS

          ADF’s management is responsible for complying with laws and regulations applicable to ADF. As part of
obtaining reasonable assurance about whether the financial statements are free of material misstatement, we performed
tests of ADF’s compliance with certain provisions of laws and regulations, noncompliance with which could have a direct
and material effect on the determination of financial statements amounts, and certain other laws and regulations specified in
Office of Management and Budget Bulletin 01-02, Audit Requirements for Federal Financial Statements. However, the
objective of our audit of the Principal Financial Statements, including our tests of compliance with selected provisions of
applicable laws and regulations, was not to provide an opinion on overall compliance with such provisions. Accordingly,
we do not express such an opinion.



                                                            6
                                                                                                       Appendix I
                                                                                                       Page 4 of 18


         Material instances of noncompliance are failures to follow requirements or violations of prohibitions in statutes
and regulations, which cause us to conclude that the aggregation of the misstatements resulting from those failures or
violations is material to the financial statements or that sensitivity warrants disclosure thereof.

         The results of our tests of compliance with the laws and regulations described in the preceding paragraph
disclosed the following instances of noncompliance with laws and regulations that are required to be reported under
Government Auditing Standards and OMB-Bulletin 01-02.

        The inadequacy of the financial and accounting system articulated above are a failure to comply with:

        •	   The Budget and Accounting Procedures Act of 1950 (Sec. 113), which requires an accounting system that
             provides full disclosure of the results of financial operations, adequate financial information needed in the
             management of operations and the formulation and execution of the budget, and effective control over
             income, expenditures, funds, property, and other assets.

        •	   OMB Circular A-127 (Financial Management Systems), which requires ADF to establish and maintain an
             accounting system that provides for (1) complete disclosure of the financial results of the activities of the
             agency, (2) adequate financial information for agency management and for formulation and execution of the
             budget, and (3) effective control over revenue, expenditures, funds, property, and other assets.

        •	   JFMIP’s Federal Financial Management System Requirements state that the core financial management
             systems must support the partnership between program and financial managers, and assure the integrity of
             decision-making information including the ability to collect accurate, timely, complete, reliable, and
             consistent information. JFMIP also requires that the core financial system be able to provide financial
             information to support internal and external reporting requirements, including as necessary the requirements
             for financial statements. OMB guidance states that one indicator of compliance with this standard is that the
             ADF’s core financial system, supported by other systems containing the detailed data summarized in the core
             financial system, be the source of information for the preparation of the annual financial statements.
             However, the ADF’s core financial system is not the sole source of information used in the preparation of the
             annual financial statements.

    We noted certain other instances of noncompliance that we have reported to the ADF’s management in a separate letter
dated December 14, 2001.


                             REQUIRED SUPPLEMENTARY INFORMATION
The Management’s Discussion and Analysis is not required part of the financial statements but is supplementary
information required by the Federal Accounting Standards Advisory Board and OMB Bulletin No. 97-01, as amended. We
have applied certain limited procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of the supplementary information. However, we did not audit the information and express
on opinion on it.


                                 RESPONSIBILITIES AND METHODOLOGY
ADF management is responsible for:

        •	   preparing the Principal Financial Statements in conformity with generally accepted accounting principles;

        •	   establishing and maintaining effective internal control; and

        •	   complying with applicable laws and regulations.


                                                           7
                                                                                                           Appendix I
                                                                                                           Page 5 of 18
         Our responsibility is to express an opinion on these Principal Financial Statements based on our audit. Generally
accepted auditing standards require that we plan and perform the audit to obtain reasonable assurance about whether the
Principal Financial Statements are free of material misrepresentation and presented fairly in accordance with generally
accepted accounting principles. We considered ADF’s internal control for the purpose of expressing our opinion on the
Principal Financial Statements and not to provide an opinion on internal control. We are also responsible for testing
compliance with selected provisions of applicable laws and regulations that may materially affect the financial statements.

         In order to fulfill these responsibilities, we

         •	   examined, on a test basis, evidence supporting the amounts and disclosures in the Principal Financial
              Statements;

         •	   assessed the accounting principles used and significant estimates made by management;

         •	   evaluated the overall presentation of the Principal Financial Statements;

         •	   obtained an understanding of the internal controls over financial reporting;

         •	   obtained an understanding of the design and operation of internal controls over the reliability of data
              supporting the performance measures reported in the Management Discussion and Analysis section of ADF’s
              fiscal year 2001 Annual Report;

         •	   tested compliance with selected provisions of laws and regulations that may materially affect the financial
              statements; and

         •    performed other procedures, as we considered necessary in the circumstances.

          Our audit was conducted in accordance with generally accepted auditing standards, the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the United States, and
OMB Bulletin 01-02. We believe that our audit provides a reasonable basis for our opinion.

        This report is intended for the information of the Inspector General of ADF and management of the African
Development Foundation. This restriction is not intended to limit the distribution of this report, which is a matter of public
record.

         Comments by ADF’s management on this report are presented in management’s discussion and analysis.

                                                                         /s/

                                                          Leonard G. Birnbaum and Company

Alexandria, Virginia
December 14, 2001




                                                              8
                                                                                                          Appendix I

                                                                                                          Page 6 of 18


MANAGEMENT DISCUSSION AND ANALYSIS


About ADF

The African Development Foundation (ADF) is a U. S. Government corporation that supports community-based, self-help
initiatives that alleviate poverty and promote broad-based, sustainable development in Africa. ADF was established by the
African Development Foundation Act of 1980 and began operations in 1984. ADF supports small and micro-enterprise
development, new export trade and investment activities, improved natural resource management, and AIDS prevention
and mitigation. ADF also works to build the capacity of its independent partner organizations in Africa. Table 1
summarizes the Foundation’s strategic goals and objectives.

Most of ADF’s assistance is directed towards groups communities in rural and peri-urban areas, although some projects are
in high density urban neighborhoods. In these areas, ADF places a high priority on reaching underserved populations
particularly women and youth, people supporting orphaned children, ethnic and cultural minorities, the disabled, and recent
school leavers.

ADF provides grants directly to community-based organizations (CBOs) and small- and micro-enterprises that generate
income and employment for low-income people. These CBOs include agricultural producer associations, cooperatives,
economic interest groups, and community development organizations. ADF can also awards grants to African non­
governmental organizations (NGO) that provide credit or business development services to small- or micro-enterprises,
assist farmers, and promote environmental quality and public health.

ADF plays a unique role within the U.S. Government’s foreign assistance programs. ADF is the only agency that works at
the grassroots level, providing Africans with the resources necessary to identify and solve their own problems. The
projects that ADF supports are African-driven and African-owned. Africans conceive, design, implement, monitor, and
evaluate the projects.

ADF has a thorough, three-stage grant review process that includes intense scrutiny of: 1) initial applications and applicant
project sites, 2) project concept papers, and 3) final project papers contain detailed implementation plans, full budgetary
and financial analyses.

Most of ADF's grants are greater than $50,000 and the maximum grant size is $250,000. To complement this funding,
ADF often helps its beneficiaries leverage grants, loans, and loan guarantees from other sources through strategic
partnerships with national and state governments in Africa, national and regional development banks, other international
development assistance agencies, and the private sector.




                                                           9
                                                                                                         Appendix I

                                                                                                         Page 7 of 18

TABLE 1. ADF’S Strategic Goals and Objectives

Goal I: Advance broad-based, sustainable development and empowerment of the poor
        in Africa

        Objective 1:      Promote micro and small enterprise development that will
                          generate income and employment
        Objective 2:      Improve community-based natural resource management for sustainable rural development
        Objective 3:      Increase participation of African grassroots enterprises and producer groups in trade and
                          investment relationships with the U.S. and within Africa
        Objective 4:      Promote community-based HIV/AIDS interventions

Goal II: Expand local capacity to promote and support grassroots, participatory development

        Objective 1:      Build self-supporting, sustainable, local community development agencies that provide technical
                          assistance and support to grassroots groups
        Objective 2:      Develop and replicate new models for community reinvestment
        Objective 3:      Establish strategic partnerships, with national and local governments, other donor
                          agencies, and the local private sector, to support sustainable, grassroots development
        Objective 4:      Encourage African governments and other donors to increase utilization of participatory
                          development “best practices”

Goal III: Enhance American assistance and strengthen U.S. relations with Africa

        Objective 1:      Leverage resources for grassroots development through strategic partnerships with U.S. private
                          sector, American philanthropic organizations and other U.S. Government agencies
        Objective 2:      Expand U.S. funding for participatory grassroots development
        Objective 3:      Improve program and policy coordination with U.S. foreign assistance and foreign policy
                          agencies


In FY 2001, ADF worked in 14 African countries (Benin, Botswana, Cape Verde, Ghana, Guinea, Lesotho, Mali, Namibia,
Niger, Nigeria, Senegal, Tanzania, Uganda, and Zimbabwe). In FY 2002, ADF will begin a pilot-scale program in one new
country (Eritrea). In each country where ADF works, the Foundation maintains a partnership relationship with a local
NGO through a cooperative agreement. ADF is committed to helping its partner organizations increase their capacity and
achieve financial sustainability with a diversified funding base over the long term.


Selected Performance Indicators

In accordance with the Government Performance and Results Act, ADF prepares an Annual Performance Report. Table 2
summarizes the Foundation’s results on key performance indicators for FY 2000 and presents preliminary data on
performance in FY 2001. In each case, the results only pertain to projects that were active during the year. No data are
collected on closed projects. ADF modified its list of performance indicators in FY2001, dropping those that corresponded
to a program strategic objective that was eliminated and some that were less useful as a management tool while adding
others that are more valid measures of the impact of current programs.




                                                         10
                                                                                                Appendix I
                                                                                                Page 8 of 18
TABLE 2. ADF’s Performance Results for FY2000 and FY2001

Performance Indicator               FY2000 Results              FY2001 Results (preliminary
                                                                estimates)
Micro- and small enterprise
development
MSEs assisted                       13,772                      20,900
New microcredit facilities          68                          Indicator dropped
established
Loans disbursed to MSEs             18,862                      26,800
New intermediary organizations      20                          Indicator dropped
providing business services and
training
Entrepreneurs and workers           23,636                      37,000
trained
Gross revenues of assisted          Indicator not in use        $9,266,100
enterprises
Income distributed by assisted      Indicator not in use        $7,348,700
MSEs or organizations as
salaries, dividends, or profits
Number of workers in MSEs           26,097                      23,700
receiving loans (job creation)
Natural resource management
Community NRM plans                 103                         59
formulated
New NRM technologies promoted       60                          Indicator dropped
Areas adopting at least one         51                          Indicator dropped
improved NRM practice
People trained in improved NRM      5,870                       3,600
practices
Trade and
Investment
Non-traditional products            2                           4
promoted
New production and export trade     0                           18
arrangements established



AIDS prevention and mitigation
People trained in AIDS              1,000 (approximately)       34,100
prevention
Civil society and local
governance
Civil society organizations         38                          Indicator (and strategic objective)
strengthened                                                    dropped
Civic education programs            7                           Indicator (and strategic objective)
undertaken                                                      dropped
People trained in self governance   619                         Indicator (and strategic objective)
                                                                dropped
NGOs involved in advocacy           14                          Indicator (and strategic objective)
strengthened                                                    dropped



                                                           11
                                                                                                           Appendix I
                                                                                                           Page 9 of 18

                             Future Activities

USG appropriations for ADF for FY 2002 have been approved at the $16.542 million level. ADF plans to allocate 55% of
this funding for micro- and small-enterprise development, 25% for trade and investment projects, 10% for natural resources
management projects, and 10% for AIDS projects. The actual allocation of funding by strategic objective and country will
vary depending on the number and quality of grant applications received.

In FY 2002, ADF plans to expand its new program in Nigeria, which began in FY 2001. With its extensive rural outreach,
ADF also expects to broaden and scale up its AIDS program to assist a larger number of people who have not been reached
by current programs of other organizations. ADF will support the involvement of grassroots enterprises and producer
groups in international trade and investment to advance its special role under the African Growth and Opportunity Act.


                             Systems and Controls
ADF’s audit program operates at two levels. ADF has a full-time internal Financial and Field Auditor (FFA) who reports
directly to the President. The FFA is primarily responsible for financial oversight of all partner organizations that have
cooperative agreements with the Foundation. ADF conducts an internal audit of each partner organization at least once
every two years.

ADF also has a full-time Financial Control Officer (FCO) whose primary responsibility is oversight of the Foundation’s
grantees. ADF contracts for the services of independent audit firms in each country where it operates. Every year, twenty
five percent of all outstanding grants are audited. Each grantee is audited at least once during its life. The FCO and senior
management follow up on all audit findings to assure they are resolved satisfactorily.

All ADF grantees are required to submit trimester financial reports. ADF’s partner NGOs in each country have a Financial
Officer who assists the grantees in complying with the Foundation’s financial reporting requirements. ADF carefully
reviews each of the trimester financial reports and addresses any discrepancies or other financial issues. In FY 2001, ADF
developed and validated a grants database to improve management oversight and internal controls related to grantee project
implementation and financial performance.

ADF undergoes annual independents audits that address its financial statements, internal controls, and compliance with
laws and regulations. ADF promptly addresses any issues raised by the independent auditors.


                             Comments on Financial Statements

ADF received an unqualified opinion on its Balance Sheet, Statement of Net Costs, and Statement of Changes in Net
Position for FY 2000 from its independent audit firm. The audit firm noted one instance of material weakness in internal
controls over financial reporting and some instances of noncompliance with selected provisions of applicable laws and
regulations. ADF addressed the issues raised in this audit and believes that it has corrected all material weaknesses and
fully complied with all applicable laws and regulations.

ADF’s financial statements report on the financial position and results of the Foundation’s operations, pursuant to
applicable law. While the statements have been prepared from books and records in accordance with formats prescribed by
OMB, the statements are different from the financial reports used to monitor and control budgetary resources, which are
prepared from the same books and records. The statements should be read with the realization that they are for an entity of
the U.S. Government.




                                                           12
                                                                                                 Appendix I
                                                                                                 Page 10 of 18



                                   AFRICAN DEVELOPMENT FOUNDATION
                                            BALANCE SHEET
                                               As of September 30, 2001


                                                     Notes            FY 2000                FY 2001
ASSETS
Entity:
 Intragovernmental
 Fund Balance with Treasury                             2             $     13,629,450       $ 15,274,934
 Accounts Receivable                                    5                       82,467             82,467
 Total Intragovernmental                                                    13,711,917         15,357,401


 Cash and other monetary assets                         3                       204,389               138,436
 Accounts receivable - Net                              5                       170,167               150,705
 General property, plant and equipment - Net            6                       377,266               273,890
 Other:
 Advances: Travel                                       4                       17,446                 41,750
              Grants                                    4                    1,571,251              1,991,832
 Prepayment - Franchise Fund                                                                          562,170



TOTAL ASSETS                                                          $     16,052,436       $ 18,516,184


LIABILITIES



 Accounts Payable                                       9             $         270,483      $        642,743
 Accrued Payroll                                                                130,409               136,102
 Accrued Leave                                                                  155,195               151,667


Total Liabilities                                                               556,087               930,512


NET POSITION
Unexpended Appropriations                                                   13,808,795            15,822,252
Cumulative Results of Operations                                             1,687,554             1,763,420


Total Net Position                                                          15,496,349            17,585,672


TOTAL LIABILITIES AND NET POSITION                                    $     16,052,436       $ 18,516,184



                          The accompanying notes are an integral part of these statements.

                                                        13
                                                                                             Appendix I
                                                                                             Page 11 of 18




                    AFRICAN DEVELOPMENT FOUNDATION

                         STATEMENT OF NET COST

                          For year ended September 30, 2001


                                                Notes       FY 2000             FY 2001
                                                             Grant               Grant
                                                            Program             Program
Program Costs

  Program Funding                                       $   7,441,626     $     9,166,418

  Operating Expenses - Public                                3,872,479           4,696,977

  Operating Expenses - Intragovernmental                      132,549             124,644

Total Program Costs                                         11,446,654          13,988,039


  Less Earned Revenue                                         (500,000)

Net Program Costs                                           10,946,654          13,988,039




Net Cost of Operations                                  $ 10,946,664      $     13,988,039




             The accompanying notes are an integral part of these statements.




                                                  14
                                                                                         Appendix I
                                                                                         Page 12 of 18


                              AFRICAN DEVELOPMENT FOUNDATION
                            STATEMENT OF CHANGES IN NET POSITION
                                   For year ended September 30, 2001




                                                    Notes         FY 2000             FY 2001


Net Cost of Operations                                             ($10,946,654)      ($13,988,039)

Financing Sources
 Appropriations Used                                                   11,849,994       13,951,345
 Donated Resources                                      8                                     1,310
 Imputed Financing                                                        132,549          124,644
 Other - Net Losses on Equipment                                                           (13,394)

Net Results of Operations                                               1,035,889           75,866




Net Change in Cumulative Results of Operations                         $1,035,889          $75,866

Increase (Decrease) in Unexpended Appropriations                       (3,541,176)        2,013,457

Change in Net Position                                                 (2,505,287)        2,089,323

Net Position-Beginning of Period                                       18,001,636       15,496,349

Net Position - End of Period                                        $15,496,349        $17,585,672




                   The accompanying notes are an integral part of these statements.




                                                   15
                                                                                                          Appendix I
                                                                                                          Page 13 of 18


                               AFRICAN DEVELOPMENT FOUNDATION

                              STATEMENT OF BUDGETARY RESOURCES

                                        For the year ended September 30, 2001



                                                                   Notes                                FY 2001
Budgetary Resources


  Budget Authority                                                                                   $15,964,800 



  Unobligated Balance Brought Forward, October 1, 2000                                                   740,017 



  Spending Authority from Offsetting Collections                                                            1,310 



  Adjustments:

     Recoveries of Prior-Year Obligations - Net                        1          ________________     1,749,981


Total Budgetary Resources                                                                            $18,456,108


Obligations Incurred - Current Period                                                                $13,658,164


Unobligated balances - available                                       7                                4,049,481
Unobligated balances - unavailable                                     7                                 152,886
Unobligated balances - not subject to apportionment                    7                                 595,577


Total, Status of Budgetary Resources                                                                 $18,456,108
Outlays:


Obligations Incurred                                                                                 $13,658,164
   Less Authority from offsetting Collections & Adjustments
        Other Actual Collections                                       8                                   1,310


                                                                                                      13,656,854


Obligated balance, net - beginning of period                                                          13,309,319


Less:    Obligated balance - end of period                                                            11,024,308


Total outlays                                                                                        $15,941,865



                         The accompanying notes are an integral part of these statements
                                                              16
                                                                                              Appendix I
                                                                                              Page 14 of 18
                                                         .


                                 AFRICAN DEVELOPMENT FOUNDATION
                                      STATEMENT OF FINANCING
                                       For the year ended September 30, 2001




Obligations and Nonbudgetary Resources

Obligations Incurred                                                                  $   13,658,164
Less: Spending Authority from Offsetting Collections & Adjustments
         Recoveries of Prior-Year Obligations                                             (1,749,981)

Donated Revenue                                                             1,310
Financing Imputed for Cost Subsidies                                      124,644
Exchange Revenue (Increases)                                               19,462
                                                                                             145,416



Total Obligation as Adjusted and Nonbudgetary Resources                               $   12,053,599



Resources That Do Not Fund Net Cost of Operations

Change in amount of goods, services, and benefits (Increases)                              1,644,665

Costs capitalized on the Balance Sheet (Increases)
   General Property, Plant & Equipment                                    103,376
   Unfunded Annual Leave                                                    3,025

Total resources that do not fund net costs                                                   106,401

Costs That Do Not Require Resources

  Bad Debt Related to Uncollectible Receivable                             54,559
  Loss/Gains on the Disposal of Assets                                     13,394
  Depreciation                                                            115,421

Total costs that do not require resources                                                    183,374




Net Cost of Operations                                                                $   13,988,039




                   The accompanying notes are an integral part of these statements.
                                                          17
                                                                                                                      Appendix I
                                                                                                                      Page 15 of 18


                                               African Development Foundation

                                               Notes to the Financial Statements

                                                            As of September 30, 2001

Note 1.       Significant Accounting Policies

A.       Organization

The African Development Foundation (ADF) is a government-owned corporation established by Congress under the African
Development Foundation Act in 1980 and began operations in 1984. The Foundation is the principal agency of the U.S.
Government that supports community-based, self-help initiatives that alleviate poverty and promote sustainable economic and social
development in Africa at the grassroots level. The Foundation’s headquarters are in Washington, D.C. ADF maintains partnerships
with local organizations, staffed with African professionals, in each of the countries in which it operates. Over the last seventeen
years, the Foundation has funded over 1400 activities in 34 African countries.


B.       Basis of Presentation

The accompanying financial statements have been prepared on the accrual basis to report the financial position and results of
operation in accordance with the concepts and standards contained in the Statements of Federal Financial Accounting Standards, as
required by the Chief Financial Officers Act of 1990. These statements have been prepared from the books and records of the
Foundation in accordance with the form and content for federal financial statements specified in the Office o f Management and
Budget (OMB) in OMB Bulletin No. 01-09 and OMB Bulletin 97-01 as amended and the Foundation’s accounting policies which
are summarized in this note.

C.       Basis of Accounting

Transactions are recorded on an accrual basis. Grants are recorded when obligated and expenses are recognized when the funds are
expended, without regard to receipt or payment of cash. The preparation of the financial statements in conformity with generally
accepted accounting principles requires management to make estimates and assumptions that affect the reported amounts of assets
and liabilities, and disclosure of contingent assets and liabilities at the date of the financial statements, and the reported amounts of
grants and expenses during the reporting period. Actual results will invariably differ from those estimates.

D.       Fund Balances with Treasury and Cash

The Foundation maintains the majority of its funds in the U.S. Treasury. These are amounts for which the Foundation is authorized to
make expenditures and pay liabilities. The Foundation does maintain cash in a commercial account at Bankers Trust Company of New
York to process the award of grant funds to recipients in U.S. currency. In addition, a commercial account is maintained with Barclays
Bank of Botswana to process grant funds for that country. The government of Botswana co-funds grants with matching grant funds
deposited to the Barclays’ account, however, the Foundation controls all grant disbursement activities.

E.       Foreign Currencies

The Foundation awards grants to private organizations in Africa. Most of the grants are denominated in local currencies to facilitate
accounting by the recipient organizations. Depending on the nature of the transaction, foreign currencies are translated into dollars
at the actual exchange rate received by the Foundation when the transaction is made or at the prevailing exchange rate at the
beginning of the month in which the transaction occurred. The value of obligations incurred by the foundation in foreign currencies
varies from time to time depending on the current exchange rate .The Foundation adjusts the value of its obligations at the end of
each year to reflect the prevailing exchange rates. Downward adjustments to prior year obligations based on foreign currency
exchange rates will be made available for obligation if the adjustment occurs within the Foundation’s authorized two year funding
period.




                                                                      18
                                                                                                                    Appendix I
                                                                                                                    Page 16 of 18


F.        Grant Accounting

The Foundation disburses funds in advance to grantees to cover their projected expenses over a three-month period. Grantees report
to the Foundation periodically on the actual utilization of these funds. For purposes of these financial statements, the Foundation
treats disbursements to grantees as advances. The advance is reduced when the grantee reports expenditures. The total grant
advance is the total amount disbursed to the grantee less the total expended for open (non-expired) grants as of the reporting date.
Once a grant has closed (expired or cancelled) any excess disbursement is reclassified as an Accounts Receivable.

G.        Travel Advances

Advances are given to ADF employees for official travel. Travel advances are recorded as expenses upon receipt of employee travel
vouchers.

H.        Property, Plant and Equipment, Net

The space in which the Foundation operates is leased by the Foundation through a multi–year lease. Equipment is
depreciated using the straight–line method over useful lives which is estimated at five years.

I.        Accounts Payable

Accounts payable represent amounts owed to non-federal entities, primarily commercial vendors, for goods and services received by
ADF and grantees whose allowable expenditures exceed the amount disbursed.

J.        Contingencies

The Foundation is a party in various administrative, legal actions and claims brought by or against it. In the opinion of the
Foundation’s management and legal counsel, the ultimate resolution of these proceedings, actions and claims will not materially
affect the financial position or results of operations of the Foundation.

K.        Annual, Sick, and Other Leave

Annual, sick and other leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the Foundation
calculates the value of the accrued annual leave at the end of the year based on current pay rates. Funding for payment of accrued
annual leave at the end of the year will be taken from future financing sources. Sick leave and other types of non-vested leave are
expensed as taken.

L.        Retirement Plan

The majority of the Foundation’s employees participate in the Civil Service Retirement System (CSRS) or the Federal Employees
Retirement System (FERS). The Foundation makes statutory contributions to the Office of Personnel Management for employees
enrolled in each plan. The foundation does not report accumulated assets, plan benefits or unfunded liabilities, if any, attributable to
its employees. The Office of Personnel Management reports such amounts.

Note 2.      Fund Balance with Treasury
                ADF’s Fund Balance with Treasury as of September 30, 2001 is summarized below:


                                                                                   FY 2001


                            Appropriated Funds                                 $15,257,834

                            Trust Fund                                              15,790
                            Gift Fund                                                1,310

                            Total                                              $15,274,934

                                                                     19
                                                                                                                   Appendix I
                                                                                                                   Page 17 of 18

Note 3.   Cash, Foreign Currency and Other Monetary Assets

            ADF’s cash held as of September 30, 2001 is summarized below:

                                                                                FY 2001
                       Bankers Trust                         $ 47,139
                       Barclays Bank of Botswana               91,297               .___
                       Total                                                    $138,436

Note 4.   Advances

            ADF’s advances as of September 30, 2001 is summarized below:

                                                                                FY 2001
                       Grants                              $1,991,832
                       Travel                                   41,750               .___
                       Total                                                  $2,033,582

Note 5.   Accounts Receivable

            The Intragovernmental Accounts Receivable represents balance due from reimbursable income from services
            provided by ADF to AID.

                                                                                FY 2001
                       Total Intragovernmental Receivable                       $82,467

            The Accounts Receivable represents the excess of receipts over expenditures by Country Liaison Offices and
            Development and Technical Assistance Grantees for FY 2001.

                                                                                FY 2001

                       Accounts Receivable                                      $252,307
                       Less Allowance for Uncollectable                         101,602
                       Net Accounts Receivable                                  $150,705

Note 6.   Property, Plant and Equipment, Net

            Equipment is capitalized at cost if the initial unit acquisition cost is $5,000 or more and service life is two years or
            more. Equipment with an acquisition cost of less than $5,000 or less than two years of life is expensed when
            purchased.

            ADF’s property, plant and equipment as of September 30, 2001 is summarized below:


                                                                                FY 2001
                       Equipment, at cost                                      $ 873,612
                       Accumulated Depreciation                                 (599,722)
                       Equipment, net                                          $ 273,890




                                                                  20
                                                                                                           Appendix I
                                                                                                           Page 18 of 18


Note 7.   Unexpended Appropriations

                                                                           FY 2001

             Unexpended Appropriations                                 $15,822,252


                   Unobligated

                    Available                            4,049,482

                    Unavailable                           152,886

                    Not Subject to Apportionment           595,576


                      Total Unobligated                                 4,797,944

                      Undelivered Orders                                11,024,308

                  Total                                               $15,822,252

Note 8.   Donations & Honorariums

           This represents an honorarium for a speech presented to Claremont College by the President of the Foundation in
           December 2000.

                                                                          FY 2001

                   Honorarium                                               $1,310

Note 9.   Accounts Payable

           Accounts payable represent amounts owed to non-federal entities, primarily commercial vendors for goods and
           services received by ADF, grantees whose allowable expenditures exceed the amount disbursed, and costs associated
           with the transition to new In-Country Partnerships effective September 30, 2001.

                                                                          FY 2001

                   Commercial vendors                       $164,564
                   Payments In Transit                       23,213
                   Grantees                                 164,499
                   New Partnership transition                290,467                 .

                  Total                                                    $642,743




                                                             21
Management                                                                                          Appendix II

Comments
                                       AFICAN DEVELOPMENT FOUNDATION



   Alvin A Brown                                                             February 21, 2002

   Director of Financial Audits

   Office of the Inspector General, U.S.A.I.D.

   Room No: 8.10 RRB

   1300 Pennsylvania Avenue

   Washington, D.C. 20523-8100


                                                   Re: Audit Report of the 2001 Financial Statement


   Dear Mr. Brown:

   We have received the audit report supplied by Leonard G. Birnbaum and Company, including the
   opinion on the African Development Foundation’s (ADF) fiscal year 2001 financial statements,
   internal controls status, and compliance with applicable laws and regulations. We are pleased to
   note that all the financial statements: Balance Sheet, Statement of Net Cost, Statement of Changes
   in Net Position, Statement of Budgetary Resources, and Statement of Financing have received
   unqualified opinions. Thank you and your team as well as Birnbaum and Company for working
   closely with us during the audit process.

   During the course of the audit, you identified and reported an instance of weakness in the internal
   controls over financial reporting and instances of non-compliance with selected provisions of
   applicable laws and regulations. In general, we concur with your findings and recommendations.
   However, we are confident that all reported weaknesses will be resolved prior to the audit of the fiscal
   year 2002 financial statements. ADF continues to aggressively implement its action plan designed to
   correct all reported findings. By March 31, 2002, all weaknesses identified in the FY 2001 audit
   report will be corrected before ADF’s submission of its mid-year financial statements to Congress.
   The effectiveness and success of this action plan is evidenced by the unqualified opinions received
   on all of ADF’s FY 2001 financial statements.

   We at the African Development Foundation recognize the importance of accountability and public
   disclosure and our goal is to achieve excellence in our financial management systems. Although the
   frequency of financial statement reporting by government corporations such as ADF remains annual,
   we have already voluntarily complied with quarterly reporting soon to be required by the larger federal
   agencies. We are committed to correcting the issues in your report and have dedicated the staff and
   resources to ensure our systems are in full compliance. We look forward to working with you and your
   staff on the 2002 audit. Any questions may be addressed to Tom Coogan or Vicki Gentry at ADF.

   Sincerely,

   /s/

   Ernest G. Green

   Chairman





                                                         22
